IN THE SUPREME COURT OF THE UNITED STATES

ALBRIGHT, GARY E., ET AL.
Petitioner
vs.

No:

21-0070

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 18, 2021
cc:

See Attached List

JAMES HAROLD HULME
ARENT FOX LLP
1717 K STREET, NW
WASHINGTON, DC 20036-5342
STEVEN M. WALD
STEWART WALD & MCCULLEY LLC
12747 OLIVE BOULEVARD
SUITE 280
ST.LOUIS, MO 63141
MARK F. (THOR) HEARNE, II
TRUE NORTH LAW LLC
112 S. HANLEY ROAD
SUITE 200
ST. LOUIS, MO 63105
THOMAS S. STEWART
STEWART WALD & MCCULLEY LLC
2100 CENTRAL
SUITE 22
KANSAS CITY, MO 64108
MEGHAN S. LARGENT
LEWIS RICE LLC
600 WASHINGTON AVENUE
SUITE 2500
ST. LOUIS, MO 63101

